                       NATIONAL SCIENCE FOUNDATICAS-
                         WASHINGTON, D.C. 2 0 5 5 0




    O f f i c e of
Inspector General




     FROM :
    THRU:     Counsel to tKe Inspector ~ e n e r a a
 SUBJECT: Closeout Memorandum
                                                       .   *
       TO:    Case No. I93120053
On December 17, 1993, OIG was notified by DAS that ten $100.00
American Express travelers cheques in route to the NSF Credit Union
had been stolen. The travelers cheques were shipped by Federal
Express to the NSF Credit Union. The Fed Ex box carrying the
cheques was delivered to the NSF Mail Room on 12/15/93. The Fed Ex
box of cheques was accidently routed by the Mail Room to the
Proposal Processing Unit with other proposals received that day.
On 12/16/93, the d      Ex box was opened by Proposal Processing
employees. When the Proposal Processing employees discovered the
travelers cheques, they immediately returned the Fed Ex box and
travelers cheques to the NSF Mail Room. DCI employee
YmW     was identified as the Mail Room employee who recel     mm
       om the Proposal Processing employees.
that the box contained travelers cheques for t e   w!lP
                                                     as also told
                                                    Credit Union.
rn
Union.
        was also identified by NSF Credit Union employees as the
       oom employee who delivered the Fed Ex box to the Credit

During an inventory of the travelers cheques on 12/16/93, the
Director of the Credit Union discovered that some of the travelers
cheques were missing.        The Credit Union Director reported the
missing cheques to American Express, who confirmed that all of the
travelers cheques had been included in the shipment. On 12/17/93,
the Credit Union Director notified DAS and the Arlington County
Police of the missinq travelers cheques. DAS notified this office.
            and ~ r l f n ~ t oCounty
manager of the NSF Mail Room.
                                n      ~GliceOfficer
                                                       Wint
                 employees, Proposal Processing e p oyees, and the,
                                                 stated that she would"
turn the case over to a Detective  Officer Jlsl)urther investiaation.



                                                                          i
Arlington County Detective w          a    s assigned to the ca;e.
On 1/4/94 American Express verified that 3 of the 10 missing




                                                    -
                                                     not     similar.


travelers



On 2/28/94, ~    ~   v   a SACn   d     interviewed
about the stolen trave ers cheques. At first, -denied        having
any knowledge of the travelers cheques then ater stated that
others in the mail room handled the Fed Ex box containing the
                                                      ygraph test.




                                           -
                                                      nterview and
                                                       threats that
                                                       n walked out

 Shortly after the conclusion of the interview,       returned to
 the Mail Room and loudly threatened the manager and assistant
manager of the              Building Security was notified of the
 disturbance and          as removed Erom the Building.     After
 reviewing                  DCI terminated          mployment and
-was         =red from the NSF work sites.
After being briefed on the         interview and his actions after      ~
the interview, Detective
not interest
                        a
                        m L         tated that Arlington County was
                      uing this matter further for the following
                                                                        I
                                                                        I

reasons: (1)           the only suspect, does not live or work in       i
Arlington Cou          2) None of the stolen cheques was negotiated
in Arlington County.
Because no other suspects have been identified and because
                                                                        i
employment was terminated, this case is closed.
